<html>
<title> - STATE PERSPECTIVES ON REGULATING BACKGROUND OZONE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                         STATE PERSPECTIVES ON
                      REGULATING BACKGROUND OZONE

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2018

                               __________

                           Serial No. 115-65

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                        _________ 

              U.S. GOVERNMENT PUBLISHING OFFICE
                   
30-876PDF             WASHINGTON : 2018            
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
BARRY LOUDERMILK, Georgia            JERRY McNERNEY, California
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
JIM BANKS, Indiana                   MARK TAKANO, California
ANDY BIGGS, Arizona                  COLLEEN HANABUSA, Hawaii
ROGER W. MARSHALL, Kansas            CHARLIE CRIST, Florida
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona
                                 ------                                

                      Subcommittee on Environment


                       ANDY BIGGS, Arizona, Chair
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  COLLEEN HANABUSA, Hawaii
MO BROOKS, Alabama                   CHARLIE CRIST, Florida
RANDY K. WEBER, Texas                CONOR LAMB, Pennsylvania
BRIAN BABIN, Texas                   EDDIE BERNICE JOHNSON, Texas
GARY PALMER, Alabama
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina, Vice 
    Chair
DEBBIE LESKO, Arizona
LAMAR S. SMITH, Texas

                            C O N T E N T S

                             June 21, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Andy Biggs, Chairman, Subcommittee on 
  Environment, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Suzanne Bonamici, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    16
    Written Statement............................................    17

                               Witnesses:

Ms. Diane Rath, Executive Director, Alamo Area Council of 
  Governments
    Oral Statement...............................................    19
    Written Statement............................................    21

Mr. Timothy Franquist, Air Quality Division Director, Arizona 
  Department of Environmental Quality
    Oral Statement...............................................    29
    Written Statement............................................    31

Dr. Elena Craft, Senior Health Scientist, Environmental Defense 
  Fund
    Oral Statement...............................................    90
    Written Statement............................................    92

Mr. Gregory Stella, Senior Scientist, Alpine Geophysics
    Oral Statement...............................................   107
    Written Statement............................................   109

Discussion.......................................................   116

             Appendix I: Additional Material for the Record

Letter submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   136

Documents submitted by Representative Suzanne Bonamici, Ranking 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........   144

Documents submitted by Representative Donald S. Beyer, Jr., 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   148


           STATE PERSPECTIVES ON REGULATING BACKGROUND OZONE

                              ----------                              


                        THURSDAY, JUNE 21, 2018

                  House of Representatives,
                        Subcommittee on Environment
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Andy Biggs 
[Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Biggs. The Subcommittee on Environment will come 
to order. Without objection, the Chair is authorized to declare 
recess of the Subcommittee at any time.
    Welcome to today's hearing entitled ``State Perspectives on 
Regulating Background Ozone.'' Before we get started, I want to 
take a moment to recognize the new Vice Chairman of the 
Subcommittee, Mr. Norman from South Carolina. I look forward to 
continuing our work together and the success of the Environment 
Committee.
    I now recognize myself for five minutes for an opening 
statement.
    In 2015, the Obama EPA lowered the National Ambient Air 
Quality Standard (NAAQS) from 75 parts per billion to 70 parts 
per billion. Meeting this new, unreasonable standard has placed 
an excessive economic burden on States across the country, and 
especially those in the Southwest. In my own State of Arizona, 
naturally-occurring background ozone, over which we have 
virtually no control, has created a compliance nightmare.
    The solution to this problem is simple: the EPA should take 
local geographic factors into account when determining ozone 
standards. Simply slapping a ``nonattainment'' designation on 
areas where ozone emissions are not even originating is both 
unfair and devastating to business in the state. Background 
ozone can come from both domestic and international sources. 
For instance, a large amount of Arizona emissions originate in 
Mexico. However, the way the NAAQS are set, these emissions 
from outside the country are used against U.S. states.
    The tragic result is that the Clean Air Act ends up 
burdening the very Americans it seeks to help--more often than 
not, hard-working people living in rural areas. Cutting 
emissions has become synonymous with cutting jobs.
    Instead of enforcing unreasonable mandates, the states and 
EPA should instead work together to determine the amount of 
man-made emissions versus natural and international emissions 
in any given area. It makes absolutely no sense to force an 
area within the United States to try to compensate for 
emissions caused by other countries.
    At first glance, Section 179B of the Clean Air Act seems to 
offer relief from emissions from international sources. 
However, when put into practice, it does not go far enough. A 
successful 179B demonstration does not allow an area to avoid a 
``nonattainment'' designation; it just relieves it of some 
potential sanctions.
    We cannot continue to punish states for emissions it cannot 
control. A nonattainment designation in turn triggers a 
nonattainment New Source Review, which then applies to all new 
major sources or major modifications to existing sources of 
pollutants. So, if a new business wants to open up or an old 
business wants to make certain changes, it has to go through 
the NSR process.
    One of the requirements in this process is for a company to 
offset emissions. But in agricultural communities, where big 
business is the exception not the rule, offsets are almost 
impossible. There are simply not enough businesses to offset 
against. This is why businesses would be reluctant to set up 
shop in a rural area that is in nonattainment, and I don't 
blame them. In a situation where sanctions are costly and 
offsets are impossible, businesses are not given much of a 
choice. Job opportunities disappear and environmental 
regulations end up institutionalizing poverty.
    We need to find a better system, and I look forward to this 
hearing as a way to explore these issues and foster a true 
discussion on the impacts of background ozone.
    [The prepared statement of Chairman Biggs follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Biggs. I now recognize the Ranking Member of the 
Subcommittee, the gentlewoman from Oregon, Ms. Bonamici, for an 
opening statement.
    Ms. Bonamici. Thank you, Mr. Chairman.
    The Clean Air Act is one of the most successful pieces of 
public health legislation enacted by Congress. According to the 
EPA, the protections helped avoid more than 200,000 premature 
deaths in its first 20 years alone. A clean environment is 
essential to a high quality of life for every American. It is 
important to consider the health effects of weakened air 
standards, particularly for children, the elderly and those 
suffering from asthma.
    The National Ambient Air Quality Standards, or NAAQS, were 
established under the Clean Air Act to regulate criteria 
pollutants that have significant negative effects on human 
health. Congress made sure that public health was the driving 
factor in setting the NAAQS by requiring the standards to be 
based on exclusively on scientific, health-based evidence.
    Since 2008, The Environmental Protection Agency's Clean Air 
Scientific Advisory Committee has recommended setting the ozone 
standard between 60 and 70 parts per billion. In 2015, the 
ozone NAAQS were strengthened to 70 parts per billion. Public 
health groups were concerned that the new level was still not 
as protective as it could have been, but acknowledged the 
positive health outcomes the new standard would have for all 
Americans.
    Some states and localities argue that meeting the 2015 
ozone NAAQS levels is impossible because of background or 
naturally occurring ozone levels, but that is simply not true. 
The EPA determined that background ozone levels remain 
relatively constant, and contribute only fractionally to ozone 
concentrations above the 70 parts per billion level on high 
ozone days. The EPA also recently revised their Exceptional 
Events Rule and Guidance to more clearly define the scope of 
the rule to help states and localities identify air quality 
monitoring data that may be affected by exceptional events.
    I would like to thank our witnesses for being here today. 
I'm glad to see Dr. Elena Craft back at the witness table to 
provide us with a scientific perspective not only on issues 
related to ozone, but also to discuss how the anti-science 
actions this Administration has taken at the EPA will undermine 
public health protections if left unchallenged.
    I would also like to draw attention to the fact that it has 
been one year and 4 months since Scott Pruitt was confirmed as 
the EPA Administrator. In that time, Democratic members of this 
Committee have sent multiple letters to Chairman Smith 
requesting the Administrator's presence at the witness table. 
The Ranking Member of the Full Committee and I have both 
requested, on the record, during Committee hearings that 
Administrator Pruitt be asked to testify in front of the 
Science Committee, only to be told that we could invite him 
ourselves. So we did. In fact, I invited Administrator Pruitt 
to participate in today's hearing as the Minority witness, but 
he rejected our request.
    This Committee is doing a disservice to the American people 
by not having the EPA Administrator testify to explain his 
anti-science agenda and explain the actions he's taking that 
will undermine public health and the environment. This is 
especially egregious considering that this Committee has 
jurisdiction over the EPA, and Administrator Pruitt has found 
the time to testify in front of other congressional committees 
multiple times.
    The EPA Administrator and Committee Chairman are touting 
the need for more transparency in science at the EPA. It seems 
that Administrator Pruitt's testimony in front of this 
Committee would be a key part of fulfilling that goal. It is 
our job to monitor Agency activities and to make sure they are 
consistent with congressional intent. We should not abdicate 
our responsibility to hold this Administration accountable.
    So I sincerely hope this Committee will fulfill its duty to 
conduct congressional oversight of the EPA's science programs 
to make sure the Agency meets its mandate to protect public 
health and the environment.
    And Mr. Chairman, I have a letter from nine public health, 
medical, and nursing organizations that support the full 
implementation and enforcement of the ozone NAAQS under the 
Clean Air Act. This letter also lays out concerns with the May 
2018 memo on updating the NAAQS review process written by EPA 
Administrator Scott Pruitt that is inconsistent with the 
statutory requirements in the Clean Air Act. This letter 
highlights the importance of maintaining the NAAQS as a health-
based standard built on scientific evidence and not allowing 
additional considerations such as cost or technically 
feasibility--technical feasibility to play a role in setting 
the standards. I ask unanimous consent that this letter be 
entered into the record.
    Chairman Biggs. Without objection.
    [The information appears in Appendix I]
    Ms. Bonamici. Thank you, and Mr. Chairman, I also have a 
poll conducted in April of 2018 by the American Lung 
Association that found that 75 percent of voters support the 
enforcement of the 2015 Ozone Standard. This included a 
plurality of Republicans. Mr. Chairman, I would like to add the 
results of the American Lung Association's poll into the 
record.
    Chairman Biggs. Without objection.
    [The information appears in Appendix I]
    Ms. Bonamici. Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Ms. Bonamici follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Biggs. The gentlelady yields back.
    I now recognize the Chairman of the Full Committee, 
Chairman Smith, for his opening statement.
    Chairman Smith. Thank you, Mr. Chairman, and thanks to our 
witnesses for being here today as well. And before we begin, 
I'd like to congratulate the gentleman from South Carolina to 
my right, Mr. Norman, for being the new Vice Chairman of the 
Subcommittee. We look forward to his contributions to the 
Committee. We've already seen examples of that in the last few 
months.
    The Science Committee--I'm sorry I'm so hoarse today. It's 
better than having lost my voice, which I did yesterday, and 
Suzanne, you can't comment on my losing my voice and wishing 
that were the case today.
    Ms. Bonamici. Duly noted, Mr. Chairman.
    Chairman Smith. The Science Committee has held a number of 
hearings on the regulatory overreach of the previous 
Administration's Environmental Protection Agency. Today's 
hearing is a timely discussion on the National Ambient Air 
Quality Standards, or NAAQS.
    The air in the U.S. is cleaner than it has ever been 
before. Yet in 2015 the previous Administration tightened the 
NAAQS for ground-level ozone.
    The fastest way to hurt our local economy is to implement 
far reaching regulations that stunt business growth and 
development. The 2015 NAAQS often places heavy burdens on the 
American people, with few actual benefits.
    Ensuring we have clean air and water, now and in the 
future, is important and should be a priority for everyone. 
However, regulations that stifle business and innovation, while 
doing little to actually meet these goals, are 
counterproductive.
    Instead of using an unachievable, one-size-fits-all 
approach, the EPA should collaborate with the States and come 
up with plans that actually work. Background ozone includes 
both natural and international ozone. Natural ozone comes from 
many sources including wildfires, lightning and vegetation. 
International ozone refers to emissions coming from other 
countries like China and Mexico.
    In some areas of the country, even background ozone levels 
exceed 70 parts per billion. In these areas, no matter how much 
a State controls its own emissions, it will never be able to 
comply with the 2015 NAAQS level.
    We simply cannot beat mother nature and we cannot force 
other countries to stop their emissions. Geologic areas should 
not be held accountable for emissions they cannot control.
    Many areas that receive a nonattainment designation suffer 
economically. This designation discourages businesses from 
moving into the State because they would have to deal with 
permitting and compliance obligations. This in turn limits 
employment opportunities for hardworking Americans living in 
our rural communities.
    Let me say, it's good to have a personal friend from San 
Antonio, Diane Rath, who happens to live in my district, and is 
here to comment on background ozone issues facing Texas. San 
Antonio, for example, is directly and adversely affected by the 
international ozone from Mexico.
    Less than a quarter of ozone emissions detected in San 
Antonio actually originated in the city. Yet to comply with the 
NAAQS, San Antonio must implement a burdensome regulatory 
agenda that adversely affects businesses and citizens alike.
    Being a good steward of the environment and promoting a 
healthy economy are not mutually exclusive. Hard working 
Americans are hit the hardest by these expensive regulations. 
Regulatory overreach costs billions of dollars, kills jobs and 
hurts the economy. For example, expensive permitting 
regulations discourage employers from establishing businesses 
and creating jobs.
    Because states have no control over international and 
natural emissions, even a state's greatest efforts to reduce 
emissions often fall short of the benefits envisioned by the 
Clean Air Act.
    I remain hopeful that the EPA will review the current NAAQS 
standards and evaluate the science and process behind setting 
future NAAQS. Recently, Administrator Pruitt laid out five 
principles that will be implemented in future NAAQS reviews. 
This ``back-to-basics'' process will ensure that sound science 
is the foundation of the NAAQS standards and that all relevant 
data is considered in implementation, including naturally 
occurring and international ozone.
    Thank you, Mr. Chairman, and I'll yield back the balance of 
my time.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Biggs. The gentleman yields, and I now recognize the 
Ranking Member of the Full Committee, Ms. Johnson, for an 
opening statement.
    Ms. Johnson. Thank you very much, Mr. Biggs, and I want to 
thank all of our witnesses for being here to discuss their 
perspectives on air pollution regulations.
    For the past several years, whenever the Majority has held 
a hearing on air pollution there has been one common thread. 
Virtually every hearing has highlighted one or more excuses as 
to why air pollution shouldn't be regulated. Today, we will 
hear about another excuse: background ozone. This isn't even a 
novel excuse. We held a hearing on this same topic just a few 
years ago.
    One thing the Committee never seems to address is the 
public health effects of Americans breathing in air pollution. 
I'm a nurse. I've done some studies. And those health effects 
are devastating. Disease, misery, and death. In addition to the 
severe bodily toll that air pollution takes on Americans, it is 
also--it also imposes a serious monetary cost. It is estimated 
that the EPA's 2015 Ozone regulations, which were only slightly 
more stringent than the previous standards, would result in 
hundreds of thousands dollars--of fewer asthma attacks in 
children every year. They continue, however, to go up. That 
would, in turn, result in over 100,000 less missed school days, 
which, in turn, would result in significantly increased 
productivity for the parents of those children. And just--that 
just deals with asthma. These regulations would also reduce 
COPD, cardiovascular disease, and other negative health 
effects.
    The total health care savings from regulating ozone even 
slightly more stringently than before runs well into the 
billions of dollars every year. That should really come as no 
surprise to the Members of Congress. Healthcare is very 
expensive. Rising healthcare costs are one of the primary 
drivers of our increasing national debt. As we work to address 
these issues, I think it makes more sense to cut the pollution 
that is helping to drive those healthcare costs higher, rather 
than cutting the healthcare treatments people need to survive.
    I hope that the Minority witness, Dr. Craft, can help us 
highlight some of the reasons why it is so important to 
regulate air pollution in the first place. And I'm sure that 
she can also address the rationale being offered today by our 
Majority for why we shouldn't be regulating pollution.
    I am from Texas, and we get plenty of cross border air 
pollution coming from our neighbors to the South. Not just 
Mexico, but Louisiana sits over there, too. Quite frankly, we 
probably also send a little air pollution to our neighbors in 
the east. Every state has its own unique issues related to 
reducing air pollution. But I don't think that is an excuse to 
let people in Dallas, Houston or San Antonio get sick and 
suffer. I hope we can keep that in mind today as we talk about 
these compliance issues. I look forward to hearing from our 
witnesses, and I yield back.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Biggs. The gentlelady yields back. Thank you.
    I now recognize Chairman Smith to introduce our first 
witness.
    Chairman Smith. Thank you, Mr. Chairman. I'm glad to be 
able to introduce Diane Rath, the Executive Director of the 
Alamo Area Council of Governments, which serves much of my home 
district back in Texas.
    Ms. Rath began work in public service when then-Governor 
George Bush appointed her Chair of the Texas Workforce 
Commission. She was then nominated by President Bush to be 
Assistant Secretary of Administration for Children and Families 
at the U.S. Department of Health and Human Services. During 
this time, she became recognized as a national leader in 
workforce development.
    Prior to her current position, Ms. Rath served as Senior 
Vice President at ResCare Workforce Services with oversight 
responsibility for operations at over 300 locations in 28 
States.
    As Executive Director of AACOG, she oversees 300 employees 
and 11 program areas with a budget of $50 million. Ms. Rath 
attended Texas Christian University and graduated from the 
University of Texas Medical Branch at Galveston.
    We are pleased to have her here. I yield back.
    Chairman Biggs. Thank you, Chairman Smith. Indeed, we are 
pleased to have Ms. Rath and all of our wonderful witnesses 
here today. We are grateful that you are here.
    Our next witness today will be from my home State of 
Arizona, Mr. Timothy Franquist. He is the Arizona Department of 
Environmental Quality's Air Quality Director. He previously 
served as the Air Quality Division Deputy Director and has been 
with ADEQ for more than 14 years.
    Prior to State service, Mr. Franquist worked in a variety 
of environmental positions, including private sector 
consulting, county government, and environmental non-government 
organizations.
    As Director of Air Quality, Mr. Franquist has led the 
division's effort to become nationally recognized for the 
agency's work on international transport of ozone, exceptional 
event demonstrations, permitting, and air quality meteorology.
    Mr. Franquist received his bachelor's degree in 
environmental science and policy from the University of 
Maryland and his master's in environmental management from ASU. 
Welcome, Dr. Franquist.
    Our third witness is Dr. Elena Craft, a senior health 
scientist at Environmental Defense Fund. For a decade, Dr. 
Craft has strategized to identify, monitor, and mitigate risks 
from environmental pollution from the industrial sector, as 
well as from within the transportation sector, most 
specifically around port areas and freight corridors.
    In addition, she has facilitated development of initiatives 
to support public health research, including helping to 
establish the Hurricane Harvey Environmental Health and Housing 
Registry in Houston, the first registry established after a 
major flood event.
    Dr. Craft's other scientific research focuses on 
understanding health disparities associated with living in 
pollution hotspots.
    She holds a bachelor's of science in biology from UNC 
Chapel Hill, a master's of science and toxicology from North 
Carolina State University, and a Ph.D. from Duke University. 
Dr. Craft also holds an adjunct assistant professorship at the 
University of Texas Health Science Center, and is a Kinder 
Fellow at Rice University. Thank you for being here, Dr. Craft.
    Our final witness today is Mr. Gregory Stella, a senior 
scientist at Alpine Geophysics, LLC. For over 25 years, Mr. 
Stella has coordinated with both public and private workgroups, 
modeling centers, and stakeholders to develop, evaluate, and 
apply control measures and program designs in support of 
emissions and air quality policy decisions.
    Prior to joining Alpine Geophysics in 2003, Mr. Stella was 
on staff at EPA's Office of Air Quality, Planning, and 
Standards, where he managed and prepared the emission 
inventories, control strategies, and associated temporal, 
spatial, and speciation data from multiple projects. He is 
internationally recognized as a technical authority in the 
modeling and policy application of emission inventories for 
ozone, and particulate matter, pollutants, and precursors.
    Mr. Stella received his bachelor's of science in chemical 
engineering from the Johns Hopkins University in Baltimore, 
Maryland.
    I now recognize Ms. Rath for five minutes to present her 
testimony.

                  TESTIMONY OF MS. DIANE RATH,

                      EXECUTIVE DIRECTOR,

               ALAMO AREA COUNCIL OF GOVERNMENTS

    Ms. Rath. Thank you, Mr. Chairman, and thank you for 
inviting me. I am Diane Rath, Executive Director of the Alamo 
Area Council of Governments. I'd also like to introduce my 
Board Chair who is with us today, Judge Chris Schuchart, who is 
a county judge in Medina County.
    I am very pleased to appear today to provide information on 
the history of public and private partnerships that have helped 
reduced ozone concentrations in the San Antonio MSA, and how 
background ozone, international emissions, and ozone transport 
contribute to San Antonio's ozone levels. Slide, please.
    [Slide.]
    Ms. Rath. The San Antonio-New Braunfels MSA has experienced 
significant improvement in its ozone levels in the past several 
years, with a 20 percent decline from 2004 to 2016. These 
improvements occurred despite a population increase of nearly 
600,000 folks across the region.
    San Antonio is currently the largest city in the country 
with attainment with ozone national ambient air quality 
standards. The city of San Antonio added the most people of any 
city in the country between 2016 and 2017, and high population 
growth is expected to continue.
    Another example of the improvement in ozone levels is the 
number of days when any monitor exceeded an 8-hour average over 
70 parts per billion. In 2017, there were only five such days 
at regulatory monitors, compared to an average of 12. The 
region's success in improving ozone levels is due, in large 
part, to local voluntary public and private initiatives to 
reduce ozone precursor emissions. Several examples are included 
in my written testimony. Slide, please.
    [Slide.]
    Ms. Rath. Photochemical modeling can be used to estimate 
the contribution from other geographic areas to ozone levels at 
a given location using the Anthropogenic Precursor Culpability 
Assessment. APCA analysis suggests that in 2017, the maximum 
local contribution to San Antonio's ozone at Camp Bullis C58 
was 12.86 parts per billion, or 20.5 percent. This means that 
79.5 percent of San Antonio's ozone is caused by emissions and 
transport from outside the San Antonio region; that is, outside 
of local control. Slide, please.
    [Slide.]
    Ms. Rath. A further breakdown of San Antonio ozone 
contribution reveals that 24.05 parts per billion, or 38.4 
percent of San Antonio's ozone, originates from international 
sources. Other Texas cities contribute 16.1 percent. It's 
estimated that areas outside Texas contribute 25 percent to San 
Antonio's ozone.
    The San Antonio-New Braunfels MSA has proven to be a leader 
when it comes to reducing ozone levels through its numerous 
public and private initiatives that limit ozone precursor 
emissions. These voluntary efforts have helped reduced San 
Antonio's ozone design value, and is predicted to continue 
falling through 2023. These ozone reductions are all the more 
impressive, given the unique ozone transport situation that San 
Antonio faces with over 38 percent of ozone contribution coming 
from international sources.
    We urge EPA to take advantage of the flexibility in the 
Clean Air Act to recognize the impact of background ozone 
levels and all foreign transport on a region. It is important 
to acknowledge the amount of ozone that is produced locally and 
able to be impacted by local actions. The regulatory burden and 
economic consequences of a nonattainment designation can be 
devastating to a region when the region is not able to impact 
the ozone levels by its own actions.
    So Mr. Chairman and Committee members, I thank you for this 
opportunity to discuss the unique impact of background ozone 
and foreign transport on our region, and share the great 
progress we have made as a result of voluntary public and 
private initiatives over the concern for the health of the 
residents of our region.
    Thank you.
    [The prepared statement of Ms. Rath follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Norman. [Presiding.] Thank you, Ms. Rath, and I too 
want to take this opportunity to thank each of you for devoting 
your time and talent to educating us on the issue.
    I now recognize Mr. Franquist for five minutes to present 
his testimony.

              TESTIMONY OF MR. TIMOTHY FRANQUIST,

                 AIR QUALITY DIVISION DIRECTOR,

          ARIZONA DEPARTMENT OF ENVIRONMENTAL QUALITY

    Mr. Franquist. Thank you. Mr. Chairman, Members of the 
Committee, my name is Timothy Franquist, and I am the Air 
Quality Director at the Arizona Department of Environment 
Quality, and I appreciate the opportunity to offer testimony 
today.
    The Clean Air Act has done a remarkable job of reducing air 
pollution across the county for the past 48 years from industry 
and vehicles. Now, however, we face a new air quality 
challenge: global air pollution, specifically, air pollution 
that is transported to the U.S. in such quantities to cause 
areas of the country to exceed the National Ambient Air Quality 
Standards. Unfortunately, the Clean Air Act is ill-equipped to 
address this new air quality problem in terms of protecting 
public health and our local economies.
    The U.S. EPA has conducted ozone modeling for U.S. 
background, or what is more commonly referred to as 
international transport, several times over the past three 
years. The models continue to indicate that ozone 
concentrations are increasing from international sources and 
impacting the U.S.
    The most recent U.S. model indicates that over 83 percent 
of ozone in southern Arizona is attributed to international 
sources. Arizona is not only impacted by Mexican emissions, 65 
percent of the ozone in the Southwest is attributed to 
international transport from Asia, according to a surface ozone 
study conducted by a team of researchers from NOAA, Princeton 
University, Columbia University, and the U.S. EPA.
    The surface ozone study further indicates that during 
summertime in the western U.S. ``increasing Asian emissions 
approximately offset the benefits of U.S. emissions 
reductions.''
    Beginning in May 2017, the Arizona Department of 
Environmental Quality installed an ozone monitor in San Luis 
Rio Colorado, Mexico, to determine the impacts of international 
transport on Yuma, Arizona, a new ozone nonattainment area 
proposed by the U.S. EPA as of April 2018. Our preliminary 
analysis indicates that prevailing winds from the south and 
increasingly high levels of ozone originating south of the U.S. 
border are causing Yuma to exceed the federal ozone standard.
    Because Yuma exceeds the 2015 Ozone standard, the Clean Air 
Act will require the State of Arizona to develop a state 
implementation plan for the area. Yuma will be subject to 
emission offsets for new large businesses or major expansions 
to existing businesses and those sources will be required the 
install extremely expensive emission control equipment before 
operating. Yuma is not a heavy industrial or urban area and 
therefore, it does not generate the requisite emission offsets, 
which ultimately discourages new or expanding business in the 
area.
    The only relief for Yuma under the Clean Air Act is the 
state to pursue an international transport demonstration, but 
we can only do that demonstration after three years of an area 
not meeting the standard. Yuma will remain in perpetual 
nonattainment until international emissions decrease to the 
extent that Yuma attains the ozone standard. The international 
transport demonstration does nothing to better protect Yuma 
residents from the health impacts of international pollution or 
lessen the burden on their local economy.
    The negative health effects of ozone is well documented; as 
is poverty's negative effect on public health. The impact of 
nonattainment on Yuma's public health and economy creates an 
incredibly dire situation for a primarily agricultural 
community of 100,000 residents, 19 percent of which live below 
the poverty line.
    The World Bank states in a report entitled ``Poverty and 
Health'' that ``Poverty is a major cause of ill health and a 
barrier to accessing health care when needed.''
    According to a study authored by Michael McCally, MD, and 
his colleagues, people living in countries with a higher Gross 
National Product have a longer life expectancy. In short, 
public health is not just about clean air, it's also about a 
healthy economy.
    Finding state-level solutions for ozone nonattainment areas 
are made infinitely more complicated when the area is 
significantly impacted by international transport of air 
pollution, as we are in Arizona. Therefore, we must look to our 
federal agencies and representatives for relief to the 
international air pollution transport problem so that the 
recipients of pollution are not punished, but protected.
    The Clean Air Act has not been significantly revised since 
1990. As Arizona and the U.S. confront the growing challenge of 
global air pollution impacts on the U.S., I urge Congress to 
seriously consider meaningful revisions to the Clean Air Act to 
address international transport of air pollution.
    Senator Flake has introduced Senate Bill 2825, which helps 
remove some of the negative economic impacts to areas of the 
U.S. that do not meet the Ozone standard due to international 
transport, while maintaining adequate air quality control 
measures to ensure that public health and the environment are 
protected. Senate Bill 2825 would be a major step in protecting 
places like Yuma, Arizona, and the West from international air 
pollution.
    Thank you.
    [The prepared statement of Mr. Franquist follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Norman. Thank you, Mr. Franquist.
    I now recognize Dr. Craft for her testimony.

                 TESTIMONY OF DR. ELENA CRAFT,

                    SENIOR HEALTH SCIENTIST,

                   ENVIRONMENTAL DEFENSE FUND

    Dr. Craft. Thank you. Chairman Biggs, Ranking Member 
Bonamici, and Members of the Committee, thank you for the 
invitation to be here to testify regarding the National Ambient 
Air Quality Standards for ground level ozone.
    My name is Elena Craft. I serve as a senior scientist at 
Environmental Defense Fund, a national nonpartisan, science-
based environmental organization where I manage a team working 
to identify strategies and opportunities to reduce harmful air 
pollution, such as ozone, from pollution hotspots. EDF is a 
national organization with over two million members that links 
science, economics, law, and private sector partnerships to 
solve our most serious environmental challenges.
    EDF and its members are deeply concerned about harmful air 
pollution, including ground level ozone. I am lucky enough to 
be joined today by a few moms from Moms Clean Air Force. 
Nationally, Moms Clean Air Force is a community of over a 
million moms and dads strong. They are mobilizing and engaging 
communities across the country on air quality issues because 
they care about their kids. They care about the tiny lungs that 
are developing. They care about making sure that their kids 
make it to school instead of to the doctor's office or to the 
hospital because of an asthma attack. They care about the long-
term health implications of living in areas that don't meet 
health-based standards, standards supported fervently by 
doctors and public health professionals across the nation.
    Fortunately for almost 50 years, the Clean Air Act has 
provided bipartisan, time-tested solutions for reducing harmful 
pollution and protecting public health. National Ambient Air 
Quality Standards for deadly pollutants like ground level ozone 
form the foundation of the Clean Air Act's health-based 
protections. These bipartisan, consensus-backed standards save 
lives and protect American families.
    But they are under threat. EPA Administrator Scott Pruitt 
is attempting to rescind, weaken, or delay many of these clean 
air standards. For instance, the Administrator has opened a 
loophole for super polluting, heavy duty long haul trucks. 
These glider vehicles are not required to deploy same modern 
pollution controls as other new long haul trucks. Gliders emit 
43 times as many NOx, or nitrogen oxides, during highway 
driving than trucks with modern emission control systems. 
Allowing this loophole has resulted in significant increases in 
NOx. One years' worth of glider sales accounts for more NOx 
emissions than all of the emissions generated as a result of 
the VW emissions billion-dollar cheating scandal.
    The Administrator has likewise neglected his responsibility 
to ensure protections are in place for downwind States and 
communities. For examples, the States of Connecticut, Delaware, 
and Maryland all submitted Good Neighbor petitions to EPA under 
Section 126 of the Clean Air Act, seeking relief from upwind 
emissions from coal-fired power plants that cause health-
harming ozone pollution within their borders, pollution that 
forms some of the background that you'll hear about today.
    Ozone does not discriminate. No matter where it comes from, 
the effect on the human body, on our kids' lungs, is the same. 
If we are in agreement that we value clean air, that we want 
our kids to breathe air that meets health-based standards 
recommended by the public health and medical communities, then 
the fastest way to achieve that clean air is to deploy the 
controls and policies that we know work. The controls that for 
almost 50 years have reduced aggregate pollution in our country 
by 73 percent, while GDP has grown 253 percent.
    Most of our country, including the San Antonio area, and 
all of Arizona, is expected to be in attainment with the 2015 
Ozone standard by 2025 because of strong Federal policies, like 
the clean car standards, the clean power plan, and the cross-
state air pollution rule.
    If we are serious about fulfilling the bipartisan agreement 
that serves as a bedrock environmental protection for our 
nation, then we must protect these policies and we must 
continue to support the scientific process that serves as the 
foundation for developing them. While there may be some 
challenges associated in isolated areas of the West, far and 
away, we should be more concerned with the current 
Administration's egregious attack on policies that will deliver 
tens of thousands of tons of emission reductions and that are 
critical in helping all communities across the country meet 
health-based standards. The Clean Air Act is important in 
reducing hospital visits, saving lives, and reducing healthcare 
costs.
    Thank you for the opportunity to be here.
    [The prepared statement of Ms. Craft follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Mr. Norman. Thank you, Dr. Craft.
    I now recognize Mr. Stella for his testimony.

                TESTIMONY OF MR. GREGORY STELLA,

                       SENIOR SCIENTIST,

                       ALPINE GEOPHYSICS

    Mr. Stella. Mr. Chairman and Members of the Committee, my 
name is Gregory Stella, and I thank you for giving me the 
opportunity to testify today on behalf of my firm, Alpine 
Geophysics regarding information on background ozone 
concentrations and its role in regulatory modeling.
    I especially would like to thank Representative Biggs for 
the invitation to appear before you.
    As air quality scientists, one of our main objectives is to 
reduce and understand the uncertainty involved with modeling 
ozone concentrations in past, present, and future timelines. 
Each data input, calculation, model, or method that supports 
our analyses have their own uncertainties that need to be 
studies in order to understand the impact of these elements on 
policy decisions.
    To this end, there are a number of categories of pollutant 
concentrations that have inherent uncertainty in a regulatory 
sense. One of those categories is background ozone.
    Background ozone has historically been defined as amounts 
of pollutant concentrations that are produced by sources other 
than people. Because amounts of ozone measured at ambient air 
quality monitors cannot be separated into background or 
anthropogenic origin, this amount needs to be determined using 
photochemical modeling and source apportionment tools.
    We know that many sources of background ozone are global in 
origin, and the fact that ozone is not emitted directly; 
rather, it is formed by reaction of hydrocarbon and nitrogen 
species in the presence of sunlight, complicates the linkage of 
particular emissions to downwind ozone concentrations.
    In the air quality community, we use global chemistry 
models to derive boundary conditions, which include background 
emissions, to inform our regional models. What this means is 
that we generate global concentrations of ozone at very coarse 
scale and mesh them with our own regional and local modeling 
platforms, which are of a much finer granularity.
    To this, we add regional background ozone concentrations 
from models that estimate biogenic or wildfire emissions, and 
complete the platform with our national inventories of 
anthropogenic sources.
    When we look at all these factors and run our own source 
apportionment tools with the resulting modeling platforms, we, 
EPA, and others have found that background ozone can range from 
ten percent of the modeled contribution to close to 90 percent 
on any single model day, with higher background contributions 
seen in the western high elevation monitor locations. This is a 
large fraction of the current 70 ppbos on NAAQS and can make it 
very difficult, if not impossible, for many regions of the 
country to attain the NAAQS.
    So when that leap is made from science to policy, the 
various definitions of uncontrollable ozone sources become 
important to consider. For example, baseline ozone, U.S. 
background, global background, global anthropogenic background, 
or even international exceptional vents have all been cited as 
applicable to 179B petitions and potential regulatory relief 
under the ``but for'' clause of this section of the Act.
    However, to be clear, relief using 179B or exceptional 
event exclusion does not give anyone cleaner air to breathe. It 
is simply recognizing a regulatory reprieve based on the 
language of the law.
    In the air quality community, these options are not seen as 
a free pass to pollute. Rather, this is seen as a reality that 
must enter into the regulatory discussion and be understood in 
order to develop control programs that maximize air quality 
benefit with minimal societal disruption.
    Unfortunately, there is a vague regulatory clarity on 
exactly what could be considered in many cases, and therefore, 
we continue to pursue direction in both definition and 
application as it relates to transport contribution of 
uncontrollable and background ozone concentration at local 
sources.
    From a scientific perspective, improvements to 
understanding background ozone are being developed using 
collateral model attribution studies among EPA, NOAA, NASA, 
states, and international organizations looking to reduce the 
uncertainty involved with boundary conditions and the relative 
international contribution to domestic air quality problems. 
Research programs like these are vital and are drastically 
underfunded. Without substantive direct funding of these 
projects, much of the work is being performed as an aside to 
other projects, unacceptable for such an important issue on 
that critical interface of science and public policy.
    In summary, it is absolutely clear that there is an ever-
increasing impact of uncontrollable emission sources on the 
ability of our States to achieve attainment with the current 
air quality standards. While much work has occurred related to 
the understanding of background ozone, and international 
transport's contribution to locally observed air quality 
concentrations, we still have a long way to go in understanding 
the contribution of these sources and improving the models and 
methods used to quantify and qualify their use in a regulatory 
framework.
    I thank you for your time and this opportunity to present 
this information before the Committee, and I will be happy to 
answer any questions that Members have on this topic.
    [The prepared statement of Mr. Stella follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Norman. Thank you, Mr. Stella. I want to thank all the 
witnesses for testifying.
    The Chair now recognizes himself for five minutes of 
questioning.
    This is up close and personal for me, this topic. I'm a 
real estate developer, and to have companies to come into an 
area and to be on the verge of breaking ground, and then to be 
put into nonattainment status is tragic. And Ms. Rath, your 
chart showing 20 percent--80 percent basically comes from 
outside with no control is real.
    So I direct my first question to Mr. Franquist. Can you 
explain the remedy a State can get from a successful 179B 
demonstration for international ozone?
    Mr. Franquist. Mr. Chairman and Members of the Committee, I 
can. That's what's referred to as the 179B International 
Transport Demonstration. The relief really looks like this. 
What it does is what's commonly referred to as a ``but for'' 
analysis is that under the Clean Air Act, if you don't meet a 
standard within the given time, you're automatically bumped up 
to the next higher classification of nonattainment. Under the 
179B, if you can make that demonstration successfully, that 
will simply stop that bump up to the higher nonattainment area 
classification.
    The challenge there is you're still in that nonattainment 
classification, until which time--in this case for us in 
Arizona, we're waiting for international emissions to drop. So 
the relief looks a lot like perpetual nonattainment. It looks a 
lot like nonattainment NSR for potentially decades, if we're 
waiting on international emissions to decrease.
    Mr. Norman. Do you believe that this is a sufficient remedy 
compared to the amount of ozone that comes from international 
sources that affects the attainment?
    Mr. Franquist. Mr. Chairman and Members of the Committee, I 
do not. Again, in my testimony I want to make it very clear 
that we're not disputing some of the health challenges of 
ozone, but what often gets lost in this conversation is the 
health effects of poverty. And so when we look at areas like 
Yuma, Arizona, 19 percent unemployment, 19 percent of the 
residents there live below the poverty line, healthy economies 
matter.
    And so when we're looking at public health holistically, we 
do need to look at how these remedies, or lack thereof, 
actually really, truly do protect the residents of those 
nonattainment areas.
    Mr. Norman. You're from Arizona. How do the strict ozone 
regulations drive business away from rural counties?
    Mr. Franquist. Mr. Chairman and Members of the Committee, 
it becomes a discouraging factor. It's a very simple analysis. 
If you're going to have to do emission offsets, they range in 
Arizona anywhere from $5 to $10,000 per ton, or you can look to 
an area that isn't an attainment area. It's a very easy 
economic choice. You're going to go to the area that does not 
have the nonattainment area issues. So it discourages large 
businesses.
    I would say the other challenge with what we call the 
traditional offset piece is that normally if a business was 
looking to get those offsets, what they would do is either shut 
down a business and capture that headroom with those emissions, 
or put on a pollution control device on an old business and 
capture those emissions. What that does is simply shuts down a 
business. That may not be a net gain in jobs, so that business 
even may be able to come into that nonattainment area, but from 
a job perspective, it may be a net zero or even a loss of jobs, 
depending on what facility they decide to shut down to get 
those offsets.
    Mr. Norman. So why can't the businesses in rural counties 
offset ozone emissions like the businesses do in the cities?
    Mr. Franquist. Mr. Chairman and Members of the Committee, 
typically under the traditional offset programs, what you're 
looking to do is what I just explained, either shut down a 
business or put pollution controls on an existing business. 
When you're in a rural area, those businesses, those large 
companies--or even small companies--to get those offsets, are 
scarce to nonexistent. So when you look in the Yuma area, we 
simply just don't have the large heavy industry there to even 
generate offsets. So we have to look to what's considered non-
traditional offsets, things like captured fleets, 
electrification of truck stops, but it's extremely difficult to 
generate those non-traditional offsets and also get a rule 
through with the EPA, because it's very difficult to prove how 
you qualify and enforce some of those offsets. So for the most 
part, states and local areas do not chase down the non-
traditional offset programs.
    Mr. Norman. Okay. Mr. Stella, what type of parameters go 
into the models that examine background ozone, and do you 
consider them reliable?
    Mr. Stella. Thank you for the question, Mr. Chairman.
    There are a number of parameters related to both emissions 
inputs or meteorology, or even the chemistry of ozone formation 
that go into our local scale models, and these are largely 
informed by the global community. The inventories that we have 
here in the United States are of a higher quality than those 
that go into the global model, and so when we try to mesh the 
two, we need to best understand exactly what we're putting into 
our simulations.
    Right now, it's the what goes in comes out sort of paradigm 
of the modeling, and until we can improve and understand what 
those conditions are, we're going to be at a loss at fully 
quantifying and qualifying how much international or boundary 
condition impact we have on our local scale monitors.
    Mr. Norman. Thank you. The Chair now recognizes Ms. 
Bonamici for five minutes for questioning.
    Ms. Bonamici. Thank you, Mr. Chairman, and before I ask my 
questions, I want to point out that Dr. Craft included in her 
submitted written testimony excerpts from the American Lung 
Association's State of the Air 2018 study, and she notes that 
in her home State of Texas, there were over 400 orange, red or 
purple high ozone days. Fourteen counties received a grade of F 
in Texas for ozone pollutions. I know there are a lot of Texas 
members on this Committee and I wanted to point that out.
    Dr. Craft, environmental challenges are often 
disproportionately felt by some of our most vulnerable 
populations. That includes children and the elderly, but also 
the economically disadvantaged of all ages. Some opponents of 
Federal ozone standards attempt to use this as a justification 
for not acting on air pollution by claiming that the cost of 
implementation will fall on impoverished communities, then 
suggesting that it would be better for these communities to 
suffer the effects of the pollution than to bear the costs.
    Also, I noted Chairman Smith in his opening statement said 
that the NAAQS standards we're discussing today create burdens 
without clear benefits, so Dr. Craft, can you respond to the 
idea that these populations would be better off without 
regulations? What are the public health costs of not 
implementing the current standard?
    Dr. Craft. Yes, I'd be happy to share some information 
about healthcare cost numbers.
    Two of the largest respiratory disease challenges that we 
have in this country are COPD and asthma. COPD is actually the 
third most common cause of death in the United States. In 2014, 
medical costs for COPD in the U.S. was $36 billion and 
projected to be $50 billion by 2020. Seventy-six percent of 
those medical costs were primarily paid for by Medicare and 
Medicaid.
    For asthma, peer reviewed research from this year indicates 
asthma costs the U.S. economy more than $80 billion annually 
and medical expenses, missed work days, and school days, as 
well as premature death.
    Ms. Bonamici. Thank you, and Dr. Craft, in your testimony 
you mentioned that anthropogenic sources, rather than 
background ozone, are the main driver of unhealthy ozone 
levels. And you also talk about how emissions reduction 
strategies do exist, but as you mentioned, they are often not 
implemented.
    We have great potential in this country for innovation. So 
can you talk about the over-emphasis of background ozone and 
the downplaying of anthropogenic sources of air pollution by 
opponents of strict ozone standards, why are known emissions 
reductions technologies not being implemented, and what can the 
EPA do to encourage or enforce the use of these emissions 
reduction strategies?
    Dr. Craft. Right. So there are a couple of things there.
    One thing that I wanted to highlight is the way that the 
design values are calculated in this country to determine 
attainment or nonattainment is that areas look at the fourth 
highest average over the past three years. So it's not that an 
area has come into attainment or out of attainment based on 
some annual percentage of ozone.
    So the question of background really needs to look at is 
background contributing to exceedance of the design value, not 
an exceedance of the 8-hour daily. So I just wanted to clarify 
that a little bit.
    Could you repeat the last question that you mentioned?
    Ms. Bonamici. Yes, about the technologies. Is there some 
reason why--I mean, you suggested that there are technologies 
that exist, but they're not implemented. What are the 
technologies that are not being implemented and what can the 
EPA do to encourage or enforce the use of these emissions 
reduction strategies?
    We've had conversations on this Committee before about 
regulation and policy driving innovation and technology 
changes, so can you talk a little bit about that?
    Dr. Craft. Yes, and since we are talking a lot about the 
intermountain West, I wanted to mention a lot of controls that 
have been developed over the last couple of years regarding 
pollution controls for oil and gas development. Peer-reviewed 
publication from the Cooperative Institute for Research and 
Environmental Sciences examined the oil and gas sector's 
contribution to ozone formation on Colorado's front range, 
specifically focusing on days that exceeded the ozone NAAQS. 
The study found that on individual days, ozone and gas ozone 
precursors can contribute in excess of 30 part per billion to 
ozone concentrations and could be the primary driver of 
exceedance of the ozone NAAQS.
    There are new pollution controls that have been 
implemented. Administrator Pruitt has issued a stay on those 
controls, and so right now we're not getting the benefit of 
those pollution controls in limiting excess emission--controls 
that would save the oil and gas sector money.
    Ms. Bonamici. Was there a reason stated for that--
implementing that stay?
    Dr. Craft. Not that I know of.
    Ms. Bonamici. I see my time is expired. I yield back. Thank 
you, Mr. Chairman.
    Mr. Norman. Thank you. The Chair now recognizes Chairman 
Smith for his questions.
    Chairman Smith. All right. Thank you, Mr. Chairman.
    Mr. Chairman, first of all I'd like to point out that Ms. 
Bonamici in her mentioning of the 14 counties in Texas that 
were not in attainment omitted the fact that there are 254 
counties in Texas. Fourteen out of 254 ain't bad, particularly 
when in many of those counties, if not all of them, much of the 
ozone is international ozone from Mexico. My guess is that if 
Oregon were subjected to 75 percent of the ozone in that State 
coming from Canada, she might have a different view of the 
attainment restrictions and the application of NAAQS.
    But I'd like to address my first question to Ms. Rath, and 
that is what has San Antonio done to remain in attainment with 
the 2008 ozone NAAQS?
    Ms. Rath. Thank you very much, Mr. Chairman. I really have 
to salute both our public and our private entities for what 
they have implemented voluntarily out of concern for the health 
to ensure they are in compliance. We have had very aggressive 
action taken.
    CPS Energy, which is our municipally owned electrical 
utility company, has been very, very aggressive to reduce the 
demand for electricity from coal-fired power plants. They 
implemented programs and the savings were equal to shutting 
down a medium-sized coal plant. They met their goal of 
producing 1,500 megawatts of renewable energy capacity two 
years ahead of schedule, and this is equal to 20 percent of 
their power generation. And that portfolio includes both wind, 
rooftop solar, and utility scale solar.
    I have to really thank CPS Energy for two aggressive 
actions they will be doing this year that will have a 
significant impact upon our ozone precursors.
    Chairman Smith. Okay.
    Ms. Rath. They are shutting down the Deeley plant, which is 
our largest and oldest coal-powered plant, shutting that down 
early which will have a significant improvement, and they've 
made tremendous investment of the technology at our remaining 
Spruce plant for that.
    In addition----
    Chairman Smith. Okay. Let me go briefly to my next 
question, which is what are some of the economic consequences 
of a nonattainment designation?
    Ms. Rath. Yes, sir. Last year, we contracted with 
economists at St. Mary's University to look at the cost of 
nonattainment in Bexar County, and at a marginal 
classification, the low estimate is over $117 million annually. 
The high estimate is over $1 billion annually. So for every 
year we're in nonattainment, there's a potential for over $1 
billion cost to just our eight county MSA.
    Chairman Smith. Okay, and that has an impact on economic 
growth and jobs and income and everything else. Okay.
    Ms. Rath. Very much so, yes, sir.
    Chairman Smith. Let me ask a final question to all of our 
panelists here today, and that is should international ozone be 
taken into consideration when applying NAAQS to various regions 
in the U.S.? Okay, Ms. Rath?
    Ms. Rath. I certainly think it should. How can you hold a 
community or a region responsible for what's totally and 
completely outside of its control? If they would take 
international transport in consideration, we would be well 
under the limit because we're barely exceeding it, 72 and 73 
parts per billion at our two regulatory monitors.
    Chairman Smith. Okay, thank you, and Mr. Franquist?
    Mr. Franquist. I would agree with Ms. Rath. I think we have 
to take it into consideration, especially when we're seeing 
studies indicate that 83 percent of the ozone in Southern 
Arizona is from international sources.
    Chairman Smith. Okay, thank you. Dr. Craft?
    Dr. Craft. I would actually disagree with Ms. Rath. I would 
point to the 2015----
    Chairman Smith. Let me make certain I understand you. You 
do not think international ozone should be taken into 
consideration?
    Dr. Craft. I guess what I'm saying is that if--are you 
talking about San Antonio specifically?
    Chairman Smith. No. No, just in general should 
international ozone be taken into consideration when we apply 
NAAQS to various regions in the U.S., wherever it might be? In 
other words, obviously San Antonio is an example. If you've got 
75 percent of the ozone being international ozone, should that 
be taken into consideration?
    Dr. Craft. Well there's two things. One is that 
international transport is actually a very small percentage of 
the ozone in the region.
    I wanted to point out one inaccuracy in Mr. Franquist's 
opening statement----
    Chairman Smith. I'll tell you what, before you go to the 
other witnesses, I'd just like an answer to my question. And 
really, it's yes or no. Should the international ozone be taken 
into consideration when applying NAAQS?
    Dr. Craft. It is taken into consideration.
    Chairman Smith. Okay. So you're saying it should be?
    Dr. Craft. It is already, yes.
    Chairman Smith. Okay. Well saying it is doesn't answer the 
question as to whether you feel it should be.
    Dr. Craft. Saying it is is saying that it is already being 
taken into consideration.
    Chairman Smith. And you agree with that?
    Dr. Craft. All sources of ozone are taken into 
consideration in regard to the NAAQS.
    Chairman Smith. But you agree that international ozone 
should be taken in consideration? I assume you're saying yes.
    Dr. Craft. Yes, it already is.
    Chairman Smith. Okay, thank you. Mr. Stella?
    Mr. Stella. From a designation perspective, I would have to 
say that I would agree that it is and I don't necessarily think 
that you can quantify that amount as you go into the 
designation. But from an attainment demonstration perspective, 
I do believe that international emissions need to be accounted 
for. But we have to be cautious because of the large 
uncertainty in predicting that amount.
    Chairman Smith. Fair enough.
    Thank you, and thank you, Mr. Chairman.
    Chairman Biggs. Thank you. The Chair recognizes the 
gentlelady from Texas, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I have some concerns myself about the consideration of 
international. Does it--when you have the ozone pollution, no 
matter what the source it still has an effect on health, right?
    Dr. Craft. That's correct.
    Ms. Johnson. So are you aware of any efforts that have been 
made to mediate some of that where you have an international 
influence?
    Dr. Craft. Yes, EPA has actually addressed that very issue 
a couple of times. What I was trying to reference a bit earlier 
was the technical support document which was released. It's 
entitled ``Intended Area Designations for the 2015 Ozone 
National Ambient Air Quality Standards Technical Support 
Document'' that references some of the work in San Antonio. On 
page 21 of that technical support document, it says ``From the 
same modeling results, a more reasonable estimate of the 
impacts from manmade emissions from Mexico is on the order of 
less than 1 part per billion,'' so 1 to two percent of the 
ozone projected for 2023 in San Antonio. That's one piece.
    I wanted to also clarify one of the references made by Mr. 
Franquist. He mentioned 65 percent of ozone increase in the 
Southwest is coming from Asia. The paper that he's referencing 
is actually a Lin paper, and the reference is 65 percent of the 
increase in background, not total ozone. So that's actually 
less than a part per billion. I'd like to just make sure that 
that's accurate for the record.
    Ms. Johnson. Now Dr. Craft, in your testimony you discuss 
EPA's delay in determining whether San Antonio meets the 70 
parts per billion standard set in 2015. This delay is despite 
the fact that monitors have detected exceedances for years. 
What is causing that delay? Are you aware?
    Dr. Craft. As far as I am aware, EPA is the cause of that 
delay. It was only in response to a lawsuit filed by States and 
public health and environmental organizations that EPA has even 
taken initial steps to identify certain areas of the country 
that do not meet the 2015 standard. This comes almost an entire 
year after the designations were due, meaning that communities 
with unhealthy levels of ozone will face another summer without 
solutions in place to clean up the air.
    I wanted to highlight an additional issue that's going on 
in San Antonio. It is correct that ground--that folks on the 
ground in San Antonio have stepped up to support clean air 
policies. Unfortunately, the Governor of Texas vetoed clean air 
planning dollars for the region of San Antonio. Over a million 
dollars' worth of planning dollars are gone as part of a line 
item veto by Governor Abbott. He claimed that he wanted 
planning dollars to go to nonattainment areas. San Antonio, for 
all intents and purposes, is actually not in attainment. It's 
not officially designated, but it has exceeded the 70 part per 
billion standard for several years now.
    Ms. Johnson. Well I'm from Dallas, and we don't have San 
Antonio that close around, but we are seeing more and more 
children and seniors getting asthma.
    Have you seen any effect of that in your research in San 
Antonio, and what--does that make the cost and the costs on 
health important or not?
    Dr. Craft. Of course, yes. I also wanted to highlight to 
that point very recent evidence from studies published within 
the last year solidifying the link between ozone exposure and 
an increased risk for death. The key study lead author Domenici 
assessed impacts in 61 million Medicare beneficiaries over 13 
years in the United States and found that the risk of death 
associated with ozone exposure continued below the current 
NAAQS. That--those 61 million people are Americans who are 
experiencing health effects at concentrations below the current 
standard.
    Ms. Johnson. Thank you very much. My time is expired.
    Chairman Biggs. The gentlelady's time is expired. The Chair 
now recognizes the gentlelady from Arizona, Representative 
Lesko.
    Mrs. Lesko. Thank you, Mr. Chair. And I want to thank the 
entire panel for coming here and educating us on this issue. I 
specifically want to say thank you to Mr. Franquist, who came 
from Arizona. And while I was in the State Senate, I always had 
good dealings with your agency, and I think they do a good job.
    I think it's really important--I think everybody cares 
about air quality. I don't think there's a question about that. 
I mean, my daughter had asthma. My grandchildren sometimes need 
to use an inhaler as well. But I really think we need to 
balance that with reasonable measures that we have influence 
over. So what I heard here today is a lot of it has to do--or 
at least a large part of it along the border has to do with 
pollution that comes over from other countries.
    I do have a question for Mr. Franquist. Mr. Franquist, what 
changes would you propose to the current National Ambient Air 
Quality Standards process to improve the way that it's 
implemented in the States?
    Mr. Franquist. Mr. Chairman, Members of the Committee, I 
think, first of all, I would start to take a look at the five-
year review cycle. Every five years the EPA has the opportunity 
to take a look at the NAAQS. It seems to be pretty consistent 
that the NAAQS goes up every single year, and that's 
challenging for areas that have to put in state implementation 
plans. You have three years to do that. It seems by the time we 
implement just the beginning states of state implementation 
plans, we're right back chasing the tiger's tail again and 
having to come up with new measures. So I think, you know, 
that's one place I would certainly start.
    Again, one area that, you know, we've been working closely 
with Senator Flake on is removing some of the nonattainment new 
source review offsets and lowest achievable mission 
requirements for those international transport areas. It seems 
to me if you could make a strong demonstration that those areas 
are not exceeding the standard but for emissions outside this 
country--and I'll go back and sharpen my pencil and make sure 
that the Lin study--the 65 percent increase. What I do know is 
the U.S. EPA's modeling said 83 percent of emissions in 
southern Arizona are from outside of this country, and so we do 
need to take a strong look at how those areas with 19 percent 
living below the poverty line can find access to good work and 
therefore good health care. And so, again, I think relieving 
those areas of layer and offset requirements would be another 
good place to start.
    Mrs. Lesko. Thank you. And, Mr. Chairman, I have one more 
question.
    Chairman Biggs. Please.
    Mrs. Lesko. Thank you. Mr. Franquist, as a follow-up, what 
has the EPA currently done or what could they continue to do to 
help the states?
    Mr. Franquist. Mr. Chairman, Members of the Committee, 
we're still awaiting the implementation rule for ozone. Under 
the past Administration, there was a proposal that these 
international transport areas would be required to implement 
reasonable available control measures before the area was 
reviewed under international transport demonstrations, which 
simply means that these areas that are shown not to be 
contributing to those issues would have to go above and beyond, 
put control measures in place to control emissions that are 
coming from somewhere else outside this country. So as we look 
to the EPA to finalize the implementation rule, I think, you 
know, certainly one area would be not requiring RACM for 
international transport areas.
    Mrs. Lesko. Thank you, sir. I yield back my time.
    Chairman Biggs. The gentlelady yields back.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Lamb.
    Mr. Lamb. Good morning. Dr. Craft, I believe you're aware 
that in 2016 EDF worked with Peoples Gas and Carnegie Mellon 
University on a methane mapping study, basically that I think 
was designed to identify areas of methane leaks and figure out 
how Peoples and their partners could remedy them. Could you 
talk a little bit about that project and how it's related to 
ozone reduction?
    Dr. Craft. Sure. So EDF partners with science; we partner 
with the private sector. The work that we have done looking 
into methane issues was done--that particular project was done 
in partnership with Google. What we did was we outfitted the 
Google street-view cars with methane sensors, and we drove 
around cities detecting methane leaks. These were primarily 
coming from pipelines around the city.
    And we drove around a couple of cities in the United 
States, Boston, Indianapolis, Pittsburgh, as you mentioned, and 
one of the things that we noted was that the older the cities, 
the older the pipeline infrastructure, generally the more leaks 
that are there. That's important because methane emissions 
actually contribute to ozone formation. Globally, you can see 
that methane emissions are actually on the rise and 
contributing to estimates between 1 and 3 part per billion.
    We are very interested in trying to curb those methane 
emissions in part because of the climate impacts. Methane is 84 
times more potent as a greenhouse gas warmer over 20 years as 
compared to carbon dioxide. We are investing millions of 
dollars in launching a satellite to measure ground-level 
methane around the world. That's how important we think that 
issue is. If we can curb methane, we can actually prevent some 
of the ozone that is formed by those releases.
    One additional item that I wanted to mention is that our 
organization has a peer-reviewed paper that is actually going 
to be coming out today looking at methane emissions and looking 
at the underestimates that--in terms of emissions inventories 
that exist.
    Mr. Lamb. I'd really like to take a look at that. If you 
could send us a copy, I'd appreciate it.
    Dr. Craft. Sure.
    Mr. Lamb. Are you aware of--what were the gas companies 
able to do after that study took place in order to remedy the 
situation?
    Dr. Craft. So the main thing that they were able to do is 
to replace those leaky pipes, and what we were able to do 
through our work was to highlight where the leakiest pipes were 
so that they could prioritize. I don't think anyone expects 
anyone to go in in a week and replace all of the pipes under an 
entire city, but if you know where the biggest leaks are, you 
can prioritize those, go in and address them, and get those 
reductions. It saves everybody money if we're not leaking 
natural gas from these pipelines.
    Mr. Lamb. And do you think there's anything that we can do 
here to encourage similar partnerships or larger-scale projects 
based on the one that you guys did?
    Dr. Craft. I mean, one thing is that we need to go back and 
make sure that there are pollution controls from the oil and 
gas sector generally. Those federal rules have been in place to 
protect everyone across the country. It would help tremendously 
to Intermountain West if we could--there are places in Wyoming 
that never had an ozone exceedance day before some of the oil 
and gas activity ramped up. So if we put those commonsense 
pollution controls on that save money, then that helps 
everybody.
    Mr. Lamb. Great. Thank you. Mr. Chairman, I yield back.
    Chairman Biggs. The gentleman yields back.
    The Chair recognizes the gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much. I'm trying to catch 
up. Sorry I'm late but it happens here in Washington. You got 
five different things you got to do and they're all important. 
And I think this is an important hearing because we need to be 
educated about this quite frankly, and I'm not educated about 
it, so I appreciate you sharing some of your knowledge.
    To the whole committee, what percentage of the atmosphere 
is ozone? What are we talking about here? What percentage of 
the atmosphere is ozone? We know how much the CO<INF>2</INF> 
is. We kind of know what methane is. Ozone isn't a percentage 
of the atmosphere?
    Mr. Stella. That's an interesting question. I think from a 
holistic value, I'm not sure that that can be answered 
adequately. I think the measurements that we tend to take are 
more on a regional and local scale, and so we look at the 
ambient conditions sort of respective of individual areas.
    Mr. Rohrabacher. So the fact that we may not have a global 
problem here but we have a problem in places?
    Mr. Stella. Well, I think there is absolutely a global 
problem, and I think what we're focusing on here today is how 
that impacts us locally.
    Mr. Rohrabacher. Does anybody else----
    Dr. Craft. Well, I guess I'll just add. So there are 
different types of ozone. We have ground-level ozone, and 
that's the ozone that is harmful. That's why we regulate it 
across the country. There's also stratospheric ozone, and that 
actually is protective. It protects us from UV radiation coming 
from the sun.
    Mr. Rohrabacher. Okay.
    So there's good ozone and bad ozone?
    Dr. Craft. Good ozone and bad ozone. One of the issues in 
the Intermountain West, which is why it's a challenge, is that 
in some of these high-elevation places, what happens is there 
are stratospheric intrusions meaning that some of the ozone, 
the good ozone that's in the stratosphere, can actually intrude 
into the troposphere and contribute to some of the ground-level 
ozone problem.
    The other issue with high-elevation areas is that the 
chemistry of ozone is a little bit different. It sticks around 
a little bit longer. And that's where you see sort of some of 
the pollution issues coming in, blowing in from other States 
and whatnot.
    Mr. Rohrabacher. So we--and I know that's what the subject 
of the hearing is is we want to focus on what's happening and 
how it impacts on health in terms of the lower level and that 
really has very little to do with the higher level of ozones.
    Dr. Craft. Correct. So we're talking about ground-level 
ozone here.
    Mr. Rohrabacher. Okay. And you were mentioning how 
different dealings--and again, I'm an amateur on this. This is 
not something--I'm happy you're here to tell us about it. There 
are leaks from oil and gas--and I remember in California we had 
a huge problem, a health problem, and then we were requiring 
things on the engines of our cars that cut down ozone. And was 
that something--was the ozone higher before that and then we 
made it lower because of that? And did that impact on health?
    Dr. Craft. So ozone is actually not a primary pollutant. 
What that means is that ozone is actually formed by different 
precursors. So what happens is in the presence of heat and 
sunlight and volatile organic compounds and nitrogen oxides, 
all of that mixes and there's a chemical reaction that actually 
forms ozone. That's why it's one of the trickier pollutants to 
manage because it's not a primary pollutant; it's a secondary 
pollutant. That's what we call a secondary pollutant.
    Mr. Rohrabacher. Coming from southern California, I can 
still remember people talking about ozone. Are we healthier? 
Did we handle that with what we did on our engines? Because I 
know that cost a lot of money in terms of gas mileage, et 
cetera, but are we healthier because of that now?
    Dr. Craft. You are healthier because of that. If you look, 
there's actually work done in southern California by a 
prominent researcher Gauderman, who's actually been able to 
demonstrate the improvement in children's health because of the 
reduction in air pollution generally. So we know that these 
controls work and that they lead to better health outcomes.
    Mr. Rohrabacher. Well, we know generally, but I was 
thinking about ozone and--do we know--does--is there someone 
else want to jump in on that?
    Ms. Rath. Congressman, I'll be glad to say that we 
appreciate the controls and the impact it's making, 
particularly in the NOx because in our area the VOC is a very 
small contributor to our ozone precursors.
    I would like to address your question about the oil and 
gas, and I have to salute the energy companies that operate in 
the Eagle Ford Shale. Last year, the highest production of oil 
came out of the Eagle Ford Shale, particularly Karnes County, 
more than any place else in the world. And the energy companies 
that are operating in south Texas have made significant 
investments in technology to really respect people's health and 
to take those measures to really lower their emissions.
    So the emissions from the oil and gas industry in our area 
is a very small contributor. I certainly can't speak to what's 
going on in the West, but I want to be very clear that that is 
not a primary contributor in our area at all.
    Mr. Rohrabacher. Well, what is the primary contributor?
    Chairman Biggs. Unfortunately, the gentleman's time is 
expired.
    Mr. Rohrabacher. Oh, pardon me.
    Chairman Biggs. Sorry. Sorry, Mr. Rohrabacher.
    I now recognize the gentleman from Virginia, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman. Thank you all very much 
for being with us.
    I would like to talk for a minute about the ``once in, 
always in'' policy legal history. And, Dr. Craft, EPA's repeal 
memo claims that the ``once in, always in'' policy violates the 
plain language of the Clean Air Act. Was the policy ever 
challenged in the courts in its 27-year history?
    Dr. Craft. The policy has been around for roughly a quarter 
of a century, and as far as I know, it has--actually, I'm not 
sure about that, whether it's actually been legally challenged.
    Mr. Beyer. It was a rhetorical question because at least 
our evidence shows that it's never been questioned in court. 
And what's remarkable is that the new EPA Assistant 
Administrator William Wehrum filed suit against the EPA 31 
times when he was in private practice, and he's the primary 
person behind this memo, and yet he never challenged it as a 
private citizen either.
    You know, the decision to increase hazardous air 
pollutants, carcinogens, and neurotoxins is completely 
irresponsible, and this decision is even more reckless today 
given that we know we can successfully control them with 
operating control devices, long-range applicable regulations. 
And it's the responsibility of the EPA to continue to guard the 
health and human environment against potential harms. And 
that's why I led a letter with Congresswoman Dingell with 87 
cosponsors asking Administrator Pruitt to reinstate these 
longstanding toxic air pollution protections. And, Mr. 
Chairman, I ask that this be admitted to the record.
    Chairman Biggs. Without objection.
    [The information follows:]*************** COMMITTEE INSERT 
***************
    Mr. Beyer. Dr. Clark--Dr. Craft rather, there have been 
cases made well by your three panelists about background 
radiation or background ozone levels. And one of the--and 
you've pointed out in the questions from Chairman Smith that in 
fact EPA, the Clean Air Act, already takes this into 
consideration. But one of the questions was that a 
demonstration can only be submitted after three years of the 
area not meeting the standard. This was for Yuma particularly. 
Is three years too long?
    Dr. Craft. The reason--oh, sorry. The reason for that 
three-year requirement is that they don't--EPA does not want to 
penalize an area for having sort of a bad year, so what they do 
is they average the previous three years to account for any 
anomalies that might exist. So that's the purpose of the 3 
years.
    I just wanted to go back and mention your ``once in, always 
in'' question. One of the things that we've done as an 
organization is we've gone through to analyze the potential 
outcome of reversing such a policy. One of the things that can 
happen is that this policy--this loophole that's been created 
applies to major sources of hazardous air pollutants under 
section 112, and it allows these facilities to reclassify 
themselves as area sources if they dip below the threshold 
value, which is 10 tons per year for a single hazard air 
pollutant or 25 tons per year of a combination of hazardous air 
pollutants, whereas before, once they were classified as major, 
they had to continue applying those controls regardless of 
those emissions.
    So in this example a source that had been previously 
classified as a major for lead and other HAPs, if they went 
down to one ton per year, they could under the new policy stop 
applying those maximum achievable control technologies and then 
increase its emissions back to 9 tons per year, still avoiding 
being classified as a major source. So that is a critical 
issue.
    And actually, in 2017, EPA issued a fact sheet stating that 
1.7 million tons of hazardous air pollution was prevented 
because of that policy, so that's an important issue I just----
    Mr. Beyer. Okay.
    Dr. Craft. --wanted to go back and clarify.
    Mr. Beyer. Okay. Thank you. I have one more key issue. 
Administrator Pruitt on May 9 issued a memo implying that EPA 
might consider costs when setting NAAQS standards despite 
settled Supreme Court precedent. The standards must be based on 
public health. And I don't think I've ever quoted Justice 
Scalia positively before, but he wrote the unanimous decision 
from the Court that only public health factors may be 
considered. And I'd like to submit another letter for the 
record signed by 71 Members, Mr. Chairman, objecting to this. 
But I'd love your perspective, Dr. Craft.
    Chairman Biggs. Admitted without objection.
    Mr. Beyer. Thank you.
    [The information appears in Appendix I]
    Dr. Craft. Yes, that is totally outside the specific 
language of the Clean Air Act to require cost to be considered. 
Costs are considered in another part of--in terms of 
implementation, not in terms of setting the policy--the 
scientific standard itself.
    Mr. Beyer. Great. Thank you. Mr. Chairman, I yield back.
    Chairman Biggs. The gentleman yields back.
    I recognize the gentleman from Texas, Mr. Babin.
    Mr. Babin. Thank you, Mr. Chairman. And thank you, 
witnesses, for being here.
    Mr. Stella, in your testimony you also state that for the 
areas that have seen elevated levels of ozone over the last ten 
years, an increase in background ozone is likely to blame. Can 
you please elaborate how you know this to be true?
    Mr. Stella. Thank you for the question.
    Mr. Babin. Yes, sir.
    Mr. Stella. Specifically, we don't have values that would 
allow us to interpret how much of the increased international 
or background contribution is there, but what we do recognize 
is that when we run our photochemical models and look at our 
source apportionment studies, which basically tags the input to 
the model, follows it through time and space, and then we look 
at the ozone concentrations at each monitor, we're seeing that 
as anthropogenic emissions are being applied locally in our 
States, the ozone concentrations are being offset by an 
increase from this background contribution component. Now, 
whether or not that's all international anthropogenic or 
international biogenic is uncertain, but the studies seem to 
indicate that, based on our source apportionment runs, the 
relative percentage of the background ozone is increasing 
compared to the reductions we're seeing from anthropogenic 
controls domestically.
    Mr. Babin. Okay. Well, you had mentioned modeling. Would 
you discuss some of the improvements being made to modeling 
through collaborations like the one between NOAA, NASA, and 
EPA?
    Mr. Stella. Absolutely. Some of the work that's ongoing at 
those agencies include looking at the performance evaluation of 
the models. Are we adequately predicting and projecting levels 
of background ozone. And so, for example, along the West Coast 
of the United States where we have a very clean boundary and we 
can measure ozone as it comes across the Pacific, studies are 
being conducted with satellites, with ozone sons, with high-
elevation monitors, and so we're trying to capture with better 
accuracy the amounts of emissions that are coming in without a 
domestic anthropogenic or biogenic influence. And so those are 
some of the studies that are being conducted, in addition to 
looking at the air chemistry involved with the ozone formation 
as it's developed over the oceans, as well as attempting to 
better understand the impact of wildfires and biogenics, and so 
looking at the inputs that go into our modeling.
    Mr. Babin. Okay. Thank you. And then, Ms. Rath, reducing 
ozone emissions can stifle economic development in a region 
because of the impacts to construction industry and businesses. 
Do you have any sense of how much it costs for your area to 
comply with these regulations?
    Ms. Rath. Yes, sir. Thank you. As I had mentioned, we had a 
study that was performed by an economist at St. Mary's 
University, and he said that with a marginal designation, our 
eight-county MSA would have costs at a minimal level of $117 
million a year up to a maximum of a little over $1 billion a 
year, so that's the cost annually if we were to go into a 
marginal status of nonattainment. And then we also have the 
figures for moderate.
    And if I may, Congressman, I would like to say----
    Mr. Babin. Sure.
    Ms. Rath. --that we have certainly seen an increase in the 
foreign transport in our area. In 2015, we were about 29 
percent foreign, and it's increased in 2017 to 38 percent 
foreign. So we're clearly seeing a much larger impact of 
foreign transport, and it's because of the improvements that we 
have done locally with the local generation going down, so that 
percentage that's foreign has certainly increased at least in 
our area.
    Mr. Babin. Okay. Thank you very much. And then, Mr. 
Franquist, would you please explain the potential economic 
impacts on a rural community if it's determined to be in 
nonattainment for ozone?
    Mr. Franquist. Thank you, and good question. Unfortunately, 
I don't have the same numbers for an area like Yuma. What I can 
say is, thanks to the good work that Texas has done, we 
actually scaled a similar economic study for Phoenix's 
nonattainment area, and that's somewhere in the neighborhood of 
$80-100 million, again, per year annually.
    For a place like Yuma, I think the cost you have to look in 
is it voided businesses coming into the area? We know that in 
the Phoenix area we lost four large businesses coming into the 
nonattainment area just to avoid the offsets and layer 
requirements. So, unfortunately, I can't give you a dollar 
sign, but I can say it's significant in terms of job loss or 
job avoidance.
    Mr. Babin. Yes, so I mean it's definitely an impact.
    Mr. Franquist. Correct.
    Mr. Babin. A number of businesses just won't come into that 
area because of the nonattainment.
    Mr. Franquist. That's correct.
    Mr. Babin. Okay. Well, I think my time's expired. Thank 
you, Mr. Chairman.
    Chairman Biggs. Thank you. The gentleman yields.
    And we're going to turn to the gentleman from California, 
Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman.
    Dr. Craft, I'm--this probably has been asked, but I want to 
ask it again. The current law permits mainly health concerns 
and science to drive ozone standards, is that correct? It's not 
economic impact, is that correct?
    Dr. Craft. Correct.
    Mr. Takano. And that's been--I think Mr. Beyer submitted 
for the record Supreme Court decisions which reaffirmed that. 
And I know that even the majority in this House respects the 
first branch of government, the legislative branch, as the 
maker of the laws, and it's, I think, inappropriate for the EPA 
to decide if they're going to use some other criteria to decide 
the levels of ozone that are permissible in regulation.
    Dr. Craft. Yes.
    Mr. Takano. Yes. Are you familiar with the Inland Empire 
region of southern California and the work of the Southern 
California Air Quality Management District in improving air 
quality in my region?
    Dr. Craft. Yes.
    Mr. Takano. What can you say about that over the past 20, 
30 years?
    Dr. Craft. I can say that California has been a leader in 
developing air quality strategies to reduce emissions. 
California has some unique challenges that don't exist anywhere 
else in the country, and they have taken that challenge on. 
It's one of the most innovative, creative States in terms of 
trying to get those reductions. What California has done with 
regard to clean car standards is tremendous. We had just this 
week actually the State of Colorado signing on to California's 
clean car standards. So California has been a model leader for 
implementing strategies to reduce pollutants like ozone.
    Mr. Takano. I can say from my anecdotal personal experience 
that I experienced as a child in the '60s and '70s frequent 
days of what we called smog alerts where kids were not allowed 
to go out and play because--I think it was because of ozone, 
the ozone layers--levels were so high. And I can remember at 
night my lungs feeling that burning sensation, and that those 
days have been reduced greatly. And I think that's in great 
deal--a part--we can attribute that to the aggressive efforts 
of the--of the Air Quality Management District in California.
    Dr. Craft. Absolutely. And I would say that there's still 
more work to do. If you review the State of the Air 2018, it's 
estimated that 41 percent of the population of the United 
States lives in areas that exceed health-based standards for 
pollutants like ozone and particulate matter.
    Mr. Takano. And my district in the Inland Empire, we 
experience high volumes of traffic from trucking and also other 
mobile sources, but we're seeing an increase of truck traffic 
as a result of products being shipped to and from logistics 
centers in my area. If public health were not the primary 
concern in setting ozone standards, would districts like mine 
have more to worry about when it comes to air quality and 
public health?
    Dr. Craft. I think we have to use sound science to 
establish these polices. We can't use anything else. Using 
anything else jeopardizes the integrity of the science. That's 
why we use science. That's why it's so important. We cannot 
have policy-led science. We need to have science-led policy.
    Mr. Takano. Thank you very much for that. You know, it's my 
understanding, Dr. Craft, that the Clean Air Act contains a 
number of mechanisms that allow EPA to address high background 
levels of ozone, specifically allows for the exclusion of 
exceptional events like wildfires and the transport of air 
pollution from overseas that contributes to higher ozone 
levels. We talked about the good ozone and bad ozone.
    This exceptional-events rule was revised in 2016 to address 
stakeholder concerns about the rule's clarity and efficiency. 
Could you share with us how and why these types of mechanisms 
operate to the benefit of public health?
    Dr. Craft. Sure. EPA has actually done a lot of work over 
the last couple of years trying to address tools, getting tools 
in place to help manage ozone. I have a recent white paper from 
the agency outlining some of the tools that are available to 
manage ozone exceedances from things like exceptional events 
and background ozone. So some of those tools are the 
exceptional-event exclusions that you mentioned. Small 
nonattainment area boundaries for sites minimally impacted by 
nearby sources is another. Rural transport areas is another. 
And then international transport provisions mentioned here, the 
179B, are just a couple of the tools that are in place.
    EPA does work hand-in-hand with the States to try to come 
up with policies that work for those States. It's not--it's 
under an agreement known as cooperative federalism. We want the 
Federal Government and the States working hand-in-hand toward 
the common goal of protecting public health. That's why the EPA 
is there.
    Mr. Takano. Mr. Chairman----
    Chairman Biggs. The gentleman's time is expired.
    Mr. Takano. Thank you.
    Chairman Biggs. Thank you, sir.
    I now recognize myself for five minutes for questions.
    I want to begin with a statement regarding the memo that's 
received such attention today. Administrator Pruitt, in his 
memo on the NAAQS, requested that the Clean Air Scientific 
Advisory Committee compile data on background ozone. As we've 
just heard in the testimony, that request is in line with Clean 
Air Act and its interpretation by the courts, including such 
cases as American Trucking Associations v. EPA. The 
Administrator of EPA is permitted by law to consider background 
ozone in NAAQS implementation.
    And with that, Mr. Franquist, Yuma County, bordered by 
Mexico, bordered by California, a rural county, very few big 
businesses, very few even medium-sized businesses in it, is it 
possible for Yuma County to reach attainment even under 
diligent efforts to offset emissions?
    Mr. Franquist. Mr. Chairman, I think it's unlikely, given 
the sources. When we look at the National Emissions Inventory 
for volatile organic compounds and NOx, the two precursors for 
ozone, we're looking at something in the neighborhood of two 
percent for VOCs and five percent from vehicles--from 
essentially anthropogenic sources in the Yuma area. So you 
likely could remove all industrial activities in the Yuma area, 
but because of the influence of international sources, you 
would likely still have a challenge of attaining the standard.
    Chairman Biggs. So we hear about the impacts of ozone on 
health, but we just talked about you could actually eliminate 
all industrial outputs and still fail to meet the NAAQS 
requirement levels. So that would further induce poverty into 
that area. And so what's the health impacts of poverty? What 
have the studies said about that?
    Mr. Franquist. Mr. Chairman, we've referenced a couple 
today and we've supplied several in the past, but, again, the 
connection for poverty and ill health is enormous. We know in 
areas like Yuma when we're 19 percent unemployment, what that 
does is it adds a burden to healthy foods, access to health 
care, so it goes hand-in-hand. And so, again, there's numerous 
academic articles linking public health issues and the economy, 
and so, again, that's why we don't challenge that ozone in and 
of itself is a problem. However, when that ozone's coming from 
somewhere else and the Clean Air Act is designed to impact 
negatively those local economies, now those impoverished areas 
have a one-two punch. And so, again, we think it's really valid 
to begin to look at how the Clean Air Act is designed to 
protect public health and the environment but to also relieve 
some of those areas of some of the significant economic impacts 
that go with the 179B demonstration.
    Chairman Biggs. And, Mr. Stella, in your testimony you 
discussed a diminishing rate of return on U.S.-controlled 
programs impacting air quality as the incremental cost of every 
ton of emissions increases. Can you elaborate on that, please?
    Mr. Stella. Certainly. Thank you for the question. In 
essence, what we're seeing is that, as a series of controls 
have already been historically put in place and we see domestic 
ozone reduced from the anthropogenic sources that we have 
control over, and an ever-increasing relative contribution of 
uncontrollable sources, whether or not the international 
transport or background or stratospheric intrusions and the 
like. As we try to get each additional ton reduced to improve 
our air quality, the cost becomes higher and higher, and it's 
simply because we're not getting the same response out of a 
reduction of one ton of NOx or VOC, for example, to reduce an 
equal amount of ozone concentration. And so as we get lower and 
lower and we see a greater percentage of uncontrollable sources 
dominate what our ambient conditions are, it's going to cost 
more to reduce less.
    Chairman Biggs. Thank you. I would like to elaborate on 
that just for a second. As we see the diminishing return 
economically, do you see it--is there a diminishing return as 
far as health conditions and improvement in health as you move 
from, say, 70 NOx down to 69, for instance?
    Mr. Stella. I'm not sure that that's a question for me, not 
being my area of expertise, but as a scientist, I would believe 
that, as you see the ozone levels decreasing, you see 
improvements in health.
    Chairman Biggs. Is there a statistical--well, you just said 
it's not your area, so I'm just wondering if there's a 
statistical diminution, but regardless, we have reached 
basically the end of our time today. I appreciate all of you 
for coming and sharing your testimony. I think it's important 
for us as this allows for a robust discussion, and we need a 
robust discussion on these issues. And there's a lot of 
considerations, a lot of variables that we have to take into 
account.
    I appreciate those on both sides of the aisle for being 
here and participating today, and with that, we're adjourned.
    [Whereupon, at 11:43 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record




                 Letter submitted by Committee Chairman
                             Lamar S. Smith
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             
                             


         Documents submitted by Representative Suzanne Bonamici
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         


       Documents submitted by Representative Donald S. Beyer Jr.
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       

                                 <all>
</pre></body></html>
